 

IN THE
Supreme Court of the United States

WILLIAM KIRKPATRICK, JR.,
Petitioner,
v.
KEVIN CHAPPELL,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF SERVICE

I, Patricia A. Young, a Deputy Federal Public Defender in the Office of
the Federal Public Defender for the Central District of California, who was
appointed as counsel for Petitioner under the Criminal Justice Act, 18 U.S.C.
§§ 3006(A)(b), 3599, hereby certify that on July 13, 2020, a copy of Motion for
Leave to Proceed in Forma Pauperis, Petition for Writ of Certiorari, and

Appendix were sent electronically and mailed postage prepaid to:
A. Scott Hayward, Deputy Attorney General
300 S. Spring Street

Suite 1700

Los Angeles, CA 90013

Scott. Hayward@doj.ca.gov

(213) 269-6190

All parties required to be served have been served. I declare under
penalty of perjury under the laws of the United States of America that the
foregoing is true and correct.

Executed on July 13, 2020 in Los Angeles, California.

Poti A

Patricia A. Young*
Deputy Federal Public Defender

Attorney for Petitioner
William Kirkpatrick, Jr.
*Counsel of Record
